No. 65-5*311

IN THE
SUPREME COURT OF THE UNITED STATES

Carlos Anderson-PETITIONER
(Your Name)
VS.
Mark Inch, Sec. FL DOC-RESPONDENT(S)

PROOF OF SERVICE

I, Carlos Anderson, do swear or declare that on this date, May, 2020, as required by
Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Attorney General Office- The Capitol PL-01, Tallahassee, FI 32399-1050
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

S~~H

, 2020

(12)

